HHS/OIG, Audit -"Review of Nursing Facility Staffing Requirements at Calvert Manor Healthcare
Center,"(A-03-05-00200)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Nursing Facility Staffing Requirements at
Calvert Manor Healthcare Center," (A-03-05-00200)
July 26, 2005
Complete
Text of Report is available in PDF format (449 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Calvert Manor Healthcare
Center was in compliance with Federal and State staffing laws and regulations for nursing homes.  Based
on our review of all 114 direct care employees, Calvert Manor Healthcare Center generally complied
with the Federal and State staffing laws and regulations that we reviewed.  A review of the direct
care employees disclosed that Calvert did not request the background check for 17 direct care employees
before they were hired.  We recommended that Calvert review and strengthen its internal controls
to assure that it requests State background checks on all new direct care employees before the employees
are hired.  In response to our draft report, Calvert concurred with our findings.